No. 20-437

 

 

IN THE
Supreme Court of the United States

UNITED STATES OF AMERICA,
Petitioner,

v.

REFUGIO PALOMAR-SANTIAGO,
Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

BRIEF FOR THE NATIONAL IMMIGRATION
PROJECT, THE IMMIGRANT DEFENSE
PROJECT, AND THE NATIONAL IMMIGRANT
JUSTICE CENTER AS AMICI CURIAE
SUPPORTING RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,577 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Wilson-Epes Printing Co., Inc.
